GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814

May 7, 2020
Hon. Scott Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543
Re: No. 19-939, Gustus v. United States
Dear Mr. Harris,
Pursuant to the Court’s Order of March 19, 2020 and Supreme Court Rule 30.4, I am
writing on behalf of petitioner to request that the Clerk delay distribution of the Petition for
a Writ of Certiorari in this case. The petition was filed on January 27, 2020 and the brief in
opposition was filed on May 1, 2020. The petition is scheduled to be distributed on May 19,
2020. Petitioner requests a two-week extension of the distribution date from May 19, 2020
to and including June 2, 2020. Petitioner makes this request because he needs additional
time to file a reply due to the ongoing COVID-19 pandemic. Counsel of record for petitioner
recently experienced a death in his family related to COVID-19.
Counsel for respondent has authorized me to represent that respondent does not
object to this request.
Thank you very much for your time and assistance in this matter.
Very truly yours,

Eric F. Citron

cc: Counsel for Respondent

(202) 362-0636
(866) 574-2033 fax

www.goldsteinrussell.com

